Case: 19-2351

Document: 53

Page: 1

Date Filed: 07/09/2020

NOT PRECEDENTIAL
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
______________
No. 19-2351
______________
UNITED STATES OF AMERICA
v.
LUIS SANABRIA-ROBRENO,
a/k/a Jorge Robrero,
Appellant
______________
Appeal from the United States District Court
for the Middle District of Pennsylvania
(D.C. No. 1-18-cr-00066-001)
District Judge: Hon. Christopher C. Conner
______________
Submitted pursuant to Third Circuit L.A.R. 34.1(a)
February 6, 2020
______________
Before: SHWARTZ, SCIRICA, and COWEN, Circuit Judges.
(Filed: July 9, 2020)
______________
OPINION*
______________

*

This disposition is not an opinion of the full Court and, pursuant to I.O.P. 5.7,
does not constitute binding precedent.
1 a

Case: 19-2351

Document: 53

Page: 2

Date Filed: 07/09/2020

SHWARTZ, Circuit Judge.
Luis Sanabria-Robreno appeals his conviction for illegal possession of a firearm,
arguing that the District Court plainly erred by failing to advise him during his change-ofplea hearing that the Government was required to prove that he knew at the time that he
possessed the firearm that he had previously been convicted of a crime punishable by
more than one year of imprisonment. Although error, the District Court’s omission did
not affect Sanabria-Robreno’s substantial rights. We will therefore affirm.
I
Sanabria-Robreno was charged in an eleven-count indictment with drug- and
firearms-related offenses. The Government conveyed a plea offer that: (1) allowed him
to plead guilty to a superseding information charging him with one count of distribution
of heroin and fentanyl, in violation of 21 U.S.C. § 841(a)(1) and 841(b)(1)(C), and one
count of possession of a firearm by a convicted felon, in violation of 18 U.S.C.
§ 922(g)(1); and (2) obligated the Government to (a) move to dismiss the original
indictment, (b) refrain from bringing any further charges arising out of the offense
conduct, and (c) move for a three-point reduction in Sanabria-Robreno’s offense level if
he accepted responsibility.
Sanabria-Robreno accepted the plea offer. At his change-of-plea hearing, the
District Court broadly described the charges to which Sanabria-Robreno was pleading
guilty, but it did not specifically advise him that the felon-in-possession offense would
require the Government to prove his knowledge of his status as a convicted felon. At the
hearing, the Government proffered the evidence that it would have adduced at trial,
2
2 a

Case: 19-2351

Document: 53

Page: 3

Date Filed: 07/09/2020

stating, in relevant part, that it would have offered evidence that “[p]rior to the events
charged in the information, [Sanabria-Robreno] had been convicted of multiple crimes
punishable by a term of imprisonment exceeding one year.” App. 63. Sanabria-Robreno
admitted this allegation at the hearing. In addition, the record reflects that, prior to the
time that he possessed the firearm, Sanabria-Robreno had been convicted of four
Pennsylvania drug crimes for which he had faced statutory maximum sentences of
between seven and fifteen years of imprisonment. Sanabria-Robreno was sentenced on
these crimes to between five and twenty-three months of imprisonment and he served
more than one year of this time in jail.
Sanabria-Robreno entered a guilty plea to both the drug and firearm charges in the
superseding information and he was sentenced to 180 months’ imprisonment.
Sanabria-Robreno appealed. While his case was on appeal, the United States
Supreme Court decided Rehaif v. United States, 139 S. Ct. 2191 (2019).
II1
Sanabria-Robreno argues that we should vacate his guilty plea and remand for
further proceedings because the District Court failed to advise him during his plea
hearing that the Government was required to prove his knowledge of his status as a
convicted felon. Because Sanabria-Robreno did not raise this objection with the District

1

The District Court had jurisdiction under 18 U.S.C. § 3231. We have appellate
jurisdiction under 28 U.S.C. § 1291.
3
3 a

Case: 19-2351

Document: 53

Page: 4

Date Filed: 07/09/2020

Court, we review for plain error.2 See United States v. Dominguez Benitez, 542 U.S. 74,
81-82 (2004).
At a change-of-plea hearing, the district court must “inform the defendant of, and
determine that the defendant understands,” among other things, “the nature of each
charge to which the defendant is pleading.” Fed. R. Crim. P. 11(b)(1)(G). To determine
whether the district court complied with this requirement, we “look to the totality of the
circumstances to determine whether a defendant was informed of the nature of the
charges against him.” United States v. Cefaratti, 221 F.3d 502, 508 (3d Cir. 2000).
The felon-in-possession statute, 18 U.S.C. § 922(g)(1), makes it “unlawful for any
person . . . who has been convicted in any court of . . . a crime punishable by
imprisonment for a term exceeding one year” to “possess in or affecting commerce, any
firearm or ammunition.” 18 U.S.C. § 922(g)(1). “A separate provision, § 924(a)(2), adds
that anyone who ‘knowingly violates’ [§ 922(g)] shall be fined or imprisoned for up to
10 years.” Rehaif, 139 S. Ct. at 2194 (emphasis omitted) (quoting 18 U.S.C. § 924(a)(2)).
In Rehaif, the Supreme Court held that “the word ‘knowingly’ [in § 924(a)(2)] applies

The plain-error standard is met when “(1) there is an error; (2) the error is clear
or obvious, rather than subject to reasonable dispute; [and] (3) the error affected the
appellant’s substantial rights, which in the ordinary case means it affected the outcome of
the district court proceedings.” United States v. Lee, 612 F.3d 170, 178-79 n.6 (3d Cir.
2010) (quoting United States v. Marcus, 560 U.S. 258, 262 (2010)). The third prong
requires the appellant to show “a reasonable probability that, but for [the error claimed],
the result of the proceeding would have been different.” United States v. Dominguez
Benitez, 542 U.S. 74, 82 (2004) (alteration in original) (quoting United States v. Bagley,
473 U.S. 667, 682 (1985) (opinion of Blackmun, J.)). If the three prongs of the plainerror standard are met, a court may address the error if it “seriously affects the fairness,
integrity or public reputation of judicial proceedings.” Lee, 612 F.3d at 178-79 n.6.
2

4
4 a

Case: 19-2351

Document: 53

Page: 5

Date Filed: 07/09/2020

both to the defendant’s conduct and to the defendant’s status. To convict a defendant, the
Government therefore must show that the defendant knew he possessed a firearm and
also that he knew he had the relevant status when he possessed it.” Id. Here, the
Government would have had to prove that Sanabria-Robreno knew at the time that he
possessed the firearm that he had been convicted of a crime punishable by more than one
year of imprisonment. See id.; see also 18 U.S.C. § 922(g)(1).
The Government concedes the first two prongs of the plain-error standard are met:
that the District Court’s failure to advise Sanabria-Robreno of the scienter requirement
set forth in Rehaif was error and that the error was clear or obvious. Sanabria-Robreno’s
argument fails, however, on the third prong of the standard, whether the error affected his
substantial rights, because he has not shown a “reasonable probability that, but for the
error, he would not have entered the plea.” Dominguez Benitez, 542 U.S. at 83.
There is substantial evidence that Sanabria-Robreno knew that he was a convicted
felon at the time that he possessed the firearm. At the time that he pleaded guilty to the
Pennsylvania drug offenses, Sanabria-Robreno signed a form acknowledging that the
maximum penalties for the crimes were between seven and fifteen years of
imprisonment. In addition, Sanabria-Robreno was sentenced to a term of imprisonment
of five to twenty-three months for these offenses, and he served more than one year of
this time in prison. This indisputable evidence demonstrates that the Government could
easily prove Sanabria-Robreno knew at the time that he possessed the firearm that he had
previously been convicted of a crime punishable by more than one year of imprisonment.
As a result, there is no reasonable probability that the District Court’s recitation of
5
5 a

Case: 19-2351

Document: 53

Page: 6

Date Filed: 07/09/2020

Rehaif’s knowledge element would have changed Sanabria-Robreno’s decision to plead
guilty, and therefore he is not entitled to vacatur of his plea under the plain-error
standard. See United States v. Burghardt, 939 F.3d 397, 403-05 (1st Cir. 2019) (rejecting
a similar argument where the record provided no “reason to think that the government
would have had any difficulty at all in offering overwhelming proof that [the defendant]
knew that he had previously been convicted of offenses punishable by more than a year
in prison”); see also United States v. Hollingshed, 940 F.3d 410, 415-16 (8th Cir. 2019)
(similar).
Additionally, Sanabria-Robreno received substantial benefits from pleading guilty,
including a reduction in his offense level for acceptance of responsibility, dismissal of the
underlying indictment, which included charges that exposed him to far greater penalties,
and the Government’s agreement not to bring further charges arising out of the offense
conduct. These benefits make it even more unlikely that Sanabria-Robreno would have
persisted in his plea of not guilty had the District Court apprised him of Rehaif’s
requirements. See United States v. Dixon, 308 F.3d 229, 235 (3d Cir. 2002) (failing to
apprise a defendant of information required by Rule 11 did not warrant vacatur because
“the record reveals many reasons why [the defendant] would have [still] pled guilty,”
including credit for acceptance of responsibility and the Government’s agreement not to
bring additional charges).
III
For the foregoing reasons, we will affirm.

6
6 a

Case: 19-2351

Document: 54-2

Page: 1

Date Filed: 07/09/2020

UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
______________
No. 19-2351
______________
UNITED STATES OF AMERICA
v.
LUIS SANABRIA-ROBRENO,
a/k/a Jorge Robrero,
Appellant
______________
Appeal from the United States District Court
for the Middle District of Pennsylvania
(D.C. No. 1-18-cr-00066-001)
District Judge: Hon. Christopher C. Conner
______________
Submitted pursuant to Third Circuit L.A.R. 34.1(a)
February 6, 2020
______________
Before: SHWARTZ, SCIRICA, and COWEN, Circuit Judges.
______________
JUDGMENT
______________
This cause came to be considered on the record of the United States District Court
for the Middle District of Pennsylvania and was submitted pursuant to Third Circuit
L.A.R. 34.1(a) on February 6, 2020.
On consideration whereof, it is now hereby ORDERED and ADJUDGED by this
Court that the Judgment of the District Court entered on May 30, 2019 is hereby
7 a

Case: 19-2351

Document: 54-2

Page: 2

Date Filed: 07/09/2020

AFFIRMED. All of the above in accordance with the Opinion of this Court.

ATTEST:
s/ Patricia S. Dodszuweit
Clerk
Dated: July 9, 2020

2
8 a

